IN THE SUPREME COURT OF THE UNITED STATES
ABILIO HERNANDEZ, LAZARO BETANCOURT,
NORGE RODRIGUEZ, and JOSE PEREZ,
Petitioners
v.
JASON BOLES and DONNIE CLARK,
Respondents
CERTIFICATE OF SERVICE
I, Paul Andrew Justice III, counsel for all four Petitioners, certify that on this
3rd day of August 2020, I have caused a copy of the Petition for Certiorari,
Appendix, and Certificate of Service to be served via commercial carrier, delivery
within three days, on the following counsel:
Amanda Jordan
Assistant Attorney General
315 Deaderick Street, 18th Floor
Nashville, TN 37243
(615) 532-5070
Amanda.Jordan@ag.tn.gov

Attorney for Respondents
Jason Boles and Donnie Clark
I further certify that I have also delivered an electronic copy to counsel on
this date via email, and that all parties required to be served have been served.
Paul Andrew Justice III
Attorney for the Plaintiffs
1902 Cypress Drive
Murfreesboro, TN 37130
(615) 419-4994
drew@justicelawoffice.com

